f
CERTIFICATE OF SERVICE
NO.TBD
Karen Bishop

Petitioners)
v.

Palm Beach County
Respondents)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the KAREN
Bishop Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Shannon Fox
Assistant County Attorney
301 North Olive Ave., Suite 601
West Palm Beach, FL 33401
(561)355-2501
sxfox@pbcgov.org
Counselfor Palm Beach County, Florida

Lucas *50eDeus

February 14, 2020
SCP Tracking: Bishop-650 N. Penrod Road, #533-Cover White

